WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-312

Texas Brine Company, LLC, et al

v.

Rodd Naquin, Clerk, Court of Appeal of Louisiana, First Circuit

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Rodd Naquin, in his capacity as Clerk of Court for the First Circuit
Court of Appeal for the State of Louisiana
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

10/13/20

(Type or print) Name

Elizabeth Murrill
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

La. Dept. of Justice

Address

1885 N. Third Street

City & State
Phone

Baton Rouge, LA

225-326-6766

Zip
Email

70802

murrille@ag.louisiana.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Paul Whitfield Hughes

